WAIVER

Supreme Court of the United States

No. 20-5765
Daniel F. Borden, Sr. v. Gary Swarthout, Warden
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
x Please enter my appearance as Counsel of Record for all respondents,

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

x Iam a member of the Bar of the Supreme Court of the United States,

1 Tam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

 

Signature

Date:

(Type or print) Name Th MA NEMV WE

 

 

   

City & State
Phone Gle- 21 O- TIAY

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce My Datel E Borden.
~ 4HAIS
ZO. aoxX 689
Soledad, 0A I3W0-0687

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
htip://www.supremecourtus.gov. Have the Supreme Court docket number available.
